!

NO:

(

IN THE
SUPREME COURT OF THE UNITED STATES

MERRILEE STEWART, PETITIONER
V.
RRL HOLDING COMPNAY OF OHIO, ET AL., RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
words, excluding the parts of the document that are exempted by Supreme Court
2,%33
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 14th day of January, 2021.

Merrilee Stewart
182 Corbins Mill Drive
Dublin, Ohio 43017
Phone: 614 395-9071
Fax: 740 965-4437
Email: Merrilee@TRGUnited.com
Merrilee Stewart, Pro Se of behalf of
Merrilee Stewart, Petitioner

